<html>
<title> - ROMANIA'S BAN ON INTERCOUNTRY ADOPTIONS; DISAPPROVAL OF THE ARAB LEAGUE'S DECISION TO HOLD ITS 2006 SUMMIT IN KHARTOUM, SUDAN, AND CALLING ON THE WORLD COMMUNITY TO END ACTS OF GENOCIDE IN THE DARFUR REGION OF SUDAN; CALLING ON THE SOCIALIST REPUBLIC OF VIETNAM TO IMMEDIATELY AND UNCONDITIONALLY RELEASE DR. PHAM HONG SON AND OTHER POLITICAL PRISONERS; AND THE CENTRAL ASIA DEMOCRACY AND HUMAN RIGHTS ACT OF 2005</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
           ROMANIA'S BAN ON INTERCOUNTRY ADOPTIONS; DISAPPROVAL 
              OF THE ARAB LEAGUE'S DECISION TO HOLD ITS 2006 SUMMIT IN
              KHARTOUM, SUDAN, AND CALLING ON THE WORLD COMMUNITY TO 
              END ACTS OF GENOCIDE IN THE DARFUR REGION OF SUDAN; 
              CALLING ON THE SOCIALIST REPUBLIC OF VIETNAM TO 
              IMMEDIATELY AND UNCONDITIONALLY RELEASE DR. PHAM HONG SON 
              AND OTHER POLITICAL PRISONERS; AND THE CENTRAL ASIA 
              DEMOCRACY AND HUMAN RIGHTS ACT OF 2005 
=======================================================================

                                  MARKUP 

                                 BEFORE THE 

                       SUBCOMMITTEE ON AFRICA, GLOBAL HUMAN 
                         RIGHTS AND INTERNATIONAL OPERATIONS 

                                    OF THE 

                                 COMMITTEE ON 
                             INTERNATIONAL RELATIONS 
                             HOUSE OF REPRESENTATIVES 

                             ONE HUNDRED NINTH CONGRESS 

                                   SECOND SESSION 

                                        ON 

                   H. Res. 578, H. Res. 675, H. Con. Res. 320, 
                                     and H.R. 3189 
                                        -------
                                     FEBRUARY 28, 2006 
                                        -------
                                     Serial No. 109-156 
                                        -------

    Printed for the use of the Committee on International Relations 

                       Available via the World Wide Web:
                  http://www.hollse.gov/international_relations 
                                        -------

                          U.S. GOVERNMENT PRINTING OFFICE 

26-345PDF                         WASHINGTON : 2006 

  For sale by the Superintendent of Documents, U.S. Government Printing 
    Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
                          Washington, DC 20402-0001 

[TEXT NOT AVAILABLE REFER TO PDF]


</pre></body></html>
